BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, here by certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in David Thompson; Aaron Downing; and
Jim Crawford v. Heather Hebdon, in her Official
Capacity as the Executive Director of the Alaska Public
Offices Commission, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 22nd day of July, 2019:
Tregarrick R. Taylor
Deputy Attorney General
Laura Fox
Senior Assistant Attorney General
Department of Law
1031 W. 4th Avenue, Suite 200
Anchorage, AK 99501
(907) 269-5275
laura.fox@alaska.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Paul D. Clement
Counsel of Record
Erin E. Murphy
Lauren N. Beebe
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
John J. Bursch
Kristen K. Waggoner
Brett Harvey
ALLIANCE DEFENDING FREEDOM
440 First Street, NW
Suite 600
Washington, DC 20001
Robin O. Brena
BRENA, BELL & WALKER, P.C.
810 N Street, Suite 100
Anchorage, AK 99501
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 22, 2019.

DonnaJ. W
Becker Gallagher Leg P ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE ANNE l<ERSHNER
Notary Public, State of Ohio
My Commission Expires
February 2i, 2023

